      Department of Homeland Security





 The Office of Financial Management’s Management
   Letter for FY 2011 DHS Consolidated Financial
                     Statements Audit




OIG-12-57                                    March 2012

                                                              Office (!f Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                                             Homeland
                                                             Security
                      MAR 1 4 2012

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the Office of Financial Management's Management Letter for FY
2011 DHS Consolidated Financial Statements Audit. It contains observations related to
internal controls that were not required to be reported in the financial statements audit
report. The independent public accounting firm KPMG LLP (KPMG) performed the
integrated audit of DHS' FY 2011 financial statements and internal control over financial
reporting and prepared this management letter. KPMG is responsible for the attached
management letter dated February 03,2012 and the conclusions expressed in it. We do,
not express opinions on DHS' financial statements or internal control or provide
conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with management officials. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                                c:hvu~&~J/
                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006
February 3, 2012


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security
Washington, DC


Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended,
based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011. We have not considered internal control since the
date of our Independent Auditors’ Report.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, referred to in the paragraph above, included internal
control deficiencies identified during our audit, that individually, or in aggregate, represented a
material weakness or a significant deficiency.
The Office of Financial Management (OFM) is part of DHS. We noted certain matters, related to
OFM that are summarized in the Table of Financial Management Comments on the following
pages, involving internal control and other operational matters that are less severe than a material
weakness or a significant deficiency, and consequently are reported separately to the Office of
Inspector General (OIG) and OFM management in this letter. These comments and
recommendations, all of which have been discussed with the appropriate members of management,
are intended to improve internal control or result in other operating efficiencies. The disposition of
each internal control deficiency identified during our FY 2011 audit – as either reported in our
Independent Auditors’ Report, or herein – is presented in Appendix A. The

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
status of internal control deficiencies identified during our FY 2010 audit is presented in Appendix
B.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DHS’ management, the DHS Office of Inspector
General, the U.S. Office of Management and Budget, the U.S. Congress, and the Government
Accountability Office, and is not intended to be and should not be used by anyone other than these
specified parties.



Very truly yours,
                                  Department of Homeland Security
                              Table of Financial Management Comments
                                         September 30, 2011

               TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment
Reference   Subject                                                                        Page(s)

FMC 11-01   Departmental Standards of Conduct and Procedural Guidance for Financial          2
            Disclosure Report Filing
FMC 11-02   Untimely Filing and Review of SF-278 Financial Disclosure Reports                2
FMC 11-03   Preparation and Review of the Special-Purpose Financial Statements and Notes     3
FMC 11-04   Findings Related to the Disbursement Process                                    3-4




                                             APPENDIX

Appendix    Subject                                                                        Page

   A        Crosswalk – Financial Management Comments to Active Notices of Finding and       5
            Recommendation (NFRs)
   B        Status of Prior Year NFRs                                                        6




                                                    1

                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


FMC 11-01 – Departmental Standards of Conduct and Procedural Guidance for Financial
Disclosure Report Filing (NFR No. CONS 11-01)

      During our test work over entity-level controls, we noted that the U.S. Department of Homeland
      Security (DHS or Department):
      •	 Had not issued DHS’s Supplemental Standards of Conduct. Supplemental Standards of
         Conduct have been developed and approved by the Department. Prior to final issuance of the
         Supplemental Standards, a notice will be published in the Federal Register for public
         comment period. The Designated Agency Ethics Official (DAEO) cannot predict when the
         final approval and issuance in the Federal register will occur.
      •	 Had drafted a revised Secretarial Directive on the Standards of Conduct (Directive Number
         123-03). The final version was under internal review and required signature by the Under
         Secretary for Management.
      •	 Had not issued common department-wide procedural guidance for filing financial disclosure
         reports. This guidance had been drafted, but issuance was pending approval of the revised
         Management Directive on the Standards of Conduct.

       Recommendation:
       We recommend that the DAEO continue to work to issue procedural guidance for financial
       disclosure reporting, the Secretary’s statement on Standards of Conduct, and the Department’s
       supplemental ethics directive.

FMC 11-02 – Untimely Filing and Review of SF-278 Financial Disclosure Reports (NFR No. CONS
11-03)

       Out of a sample of 15 SF-278 financial disclosures filed by Senior Executive Service (SES)
       personnel at National Protection and Programs Directorate, Science and Technology Directorate,
       and the Management Directorate, one report had not been reviewed within 60 days of receipt by
       Office of General Counsel (OGC) Ethics Division as required by CFR 5 § 2634.605(a). OGC
       Ethics Division confirmed that additional information was not being sought in this case at that
       time.

       Additionally, one employee out of the sample of 15 had, as of October 11, 2011, not filed the
       required SF-278. OGC Ethics Division reported that the individual was a new promotion to SES
       and that he had been contacted several times to remind him to file.

       Recommendation:
       We recommend that DHS collaborate with the Chief Human Capital Officer to develop a
       procedure to ensure the Ethics Office is notified when new filers come on board and are
       promoted, temporarily assigned to, or leave a covered position.




                                                  2

                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2011


FMC 11-03 – Preparation and Review of the Special-Purpose Financial Statements and Notes (NFR
No. CONS 11-05)

       During testwork over the closing package submission, we identified the following errors,
       resulting in DHS reopening Governmentwide Financial Report System (GFRS) to update the
       initial closing package submission.

       •	 GF004F – Trading Partner Summary Note Report – Statement of Changes in Net Position –
          Other Non-Budgetary Financing Sources – the September 2011 amount for Trading Partner
          16, Department of Labor, was misstated resulting in a $90 million overstatement error.
          Trading Partner 19, Department of State, was misstated resulting in a $46 million
          overstatement error. Trading Partner 49, National Science Fund, was misstated resulting in a
          $33 million overstatement error. Trading Partner 95, Independent and Other Agencies, was
          misstated resulting in a $169 million understatement error.
       •	 GF006 - Note 3 – Accounts and Taxes Receivable: in Section A – Taxes – the amounts
          recorded in Line 1 – Interest on uncollectible accounts were reported with the incorrect sign
          for fiscal year (FY) 2011 and FY 2010, $405 million and $315 million, respectively.
       •	 GF006 – Note 04A – Direct Loans Receivable and Mortgage Backed Securities
               - In Section C – Components of Loans Receivable, Net – Current Year – Loans were
                   incorrectly entered into the Federal Direct Student Loans category instead of Other,
                   resulting in a $10 million error.
               -	 In Section D – Components of Loans Receivable, Net – Current Year – Loans were
                   incorrectly entered into the Federal Direct Student Loans category instead of Other,
                   resulting in a $85 million error.
       •	 GF006 – Note 06 – Property, Plant and Equipment (PP&E)
               - In Line 3 – Capitalized acquisitions from the public, the current year PP&E amount
                   was misstated resulting in a $42 million understatement error.
               -	 In Line 4 – Capitalized acquisitions from Government agencies, the current year
                   PP&E amount was misstated resulting in a $42 million overstatement error.

       Recommendations:
       We recommend that DHS:
       •	 Conduct a comprehensive review of the current GFRS Financial Reporting Note preparation
          and review process and identify additional areas for automation and streamlining and
          document each Financial Reporting Note’s process in detail to show source data.
       •	 Enhance the quality control process of Component-provided data (manual notes and other
          text explanations) prior to consolidation and input into GFRS.

FMC 11-04 – Findings Related to the Disbursement Process (NFR No. CONS 11-06)

       In performing enhanced procedures over the disbursement control process at DHS, we noted the
       following:
       •	 A lack of policies and procedures to ensure a consistent, detailed review of invoices and
           related supporting documentation is completed prior to payment
       •	 A lack of policies and procedures on how to define a proper invoice within a contract.




                                                  3

                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2011


•	 A lack in consistency regarding requirements contained within subcontractor agreements
   relating to the procedures to be performed when reviewing the invoices for the contracting
   officer (CO).
•	 A lack of policies and procedures for the CO to follow to perform appropriate oversight over
   procedures performed by the subcontractor in relation to invoice verification.
•	 Current policies and procedures over contract requirements do not address requirements for
   invoice submission to ensure adequate supporting documentation is received for personnel to
   perform an effective review prior to payment.
•	 Policies and procedures related to invoice review requirements are disaggregated into
   numerous documents.

Recommendations:
We recommend that DHS:
•	 Review Component policies and procedures and work with the DHS Office of the Chief
   Procurement Officer to develop Department-wide guidance to improve disbursement
   processes for contractual requirements and risks.
•	 Integrate internal control examination, reperformance, or other substantive test with improper
   payment testing to provide greater assurance that improper payment risks are mitigated.




                                            4

                                                                                                                 Appendix A
                                      Department of Homeland Security
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2011


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
    NFR No.                                Description                                 MW         SD        NC        No.
               Departmental Standards of Conduct and Procedural Guidance for
     11-01                                                                                                           11-01
               Financial Disclosure Report Filing
     11-02     Audited Financial Statements                                                                K, M
     11-03     Untimely Filing and Review of SF-278 Financial Disclosure Reports                                     11-02
               Non-Compliance with Office of Management and Budget Circular A­
     11-04                                                                                                   O
               136 & Government Performance and Results Act
               Preparation and Review of the Special-Purpose Financial Statements
     11-05                                                                                                           11-03
               and Notes
     11-06     Findings Related to the Disbursement Process                                                          11-04

1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 11, 2011
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws,regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Fund Balance with Treasury
H         Grants Management
I         Custodial Revenue and Drawback
J         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
K         Federal Financial Management Improvement Act of 1996 (FFMIA)
L         Single Audit Act Amendments of 1996
M         Chief Financial Officers Act of 1990 (CFO Act)
N         Antideficiency Act, as amended (ADA)
O         Government Performance and Results Act of 1993 (GPRA)




                                                              5

                                                                                                                    Appendix B
                                            Department of Homeland Security
                                               Status of Prior Year NFRs
                                                  September 30, 2011




                                                                                                          Disposition1
                                                                                                                  Repeat
    NFR No.                                        Description                                      Closed2    (2011 NFR
                                                                                                                   No.)
                 Tracking System for Ethics Training, Public Financial Disclosures, and
      10-01                                                                                                       CONS 11-01
                 Confidential Reports
      10-02      Preparation of the Departmental Interim Legal Letter                                   X
      10-03      Audited Financial Statements                                                                     CONS 11-02
      10-04      Number not used                                                                            Not applicable
      10-05      Lack of SAS 70 Roll-forward Guidance                                                   X
      10-06      Compliance with OMB Circular A-136                                                               CONS 11-04
      10-07      Statement of Net Cost (SNC) Methodologies and IT Systems Functionality                           CONS 11-04
                 Discrepancies Exist Between DHS Guidance and the Treasury Information
      10-08                                                                                             X
                 Executive Repository Analytical Report
      10-09      Number not used                                                                            Not applicable
      10-10      Non-Compliance with OMB Circular A-50, Audit Followup                                  X
      10-11      Preparation and Review of the Special-Purpose Financial Statements and Notes                     CONS-11-05


1
 KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and for the year
ended September 30, 2011, and was not engaged to perform an audit over the statement of net cost, statement of changes in net
position, and statement of budgetary resources for the year ended September 30, 2011. In addition, we were engaged to follow-
up on the status of all active NFRs that supported significant deficiencies reported in our FY 2010 Independent Auditors’ Report.


2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                 6

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Financial Management

                      Chief Financial Officer
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
